           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        R-1 RELIGIOUS WORKERS’
        USE OF SOCIAL SECURITY
              NUMBERS

     March 2009     A-08-08-18079




 MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   March 9, 2009                                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Management Advisory Report: R-1 Religious Workers’ Use of Social Security Numbers
        (A-08-08-18079)


        OBJECTIVE
        Our objectives were to (1) assess Social Security number (SSN) use by nonimmigrants
        with an R-1 religious worker classification and (2) evaluate the Social Security
        Administration’s (SSA) compliance with policies and procedures when processing R-1
        SSN applications.

        BACKGROUND

        Each year, the Department of State issues thousands of visas to nonimmigrants who
        wish to work in a religious vocation or occupation in the United States. The Department
        of Homeland Security (DHS) admits religious workers under R-1 visas for an initial
        period of up to 30 months, with the potential for one extension of up to an additional
        30 months. Regulations prohibit R-1 religious workers from obtaining employment in a
        secular occupation. 1

        Under the Social Security Act, SSA assigns SSNs to all nonimmigrants, including
        R-1 religious workers, who enter the United States with work authorization. 2 To obtain
        an SSN, R-1 religious workers must complete, sign, and submit an Application for a
        Social Security Card (Form SS-5) to an SSA field office. 3 In addition, R-1 religious
        workers must provide SSA acceptable evidence of age, identity, and lawful alien
        status/current authority to work. 4 Wages and compensation paid to R-1 religious

        1
         8 C.F.R. §§ 214.2(r) and 274a.12(b)(16) and Federal Register / Vol. 73, No. 229 / Wednesday,
        November 26, 2008 / Rules and Regulations p. 72278.
        2
            The Social Security Act § 205(c)(2)(B)(i), 42 U.S.C. § 405.
        3
            SSA, Program Operations Manual System (POMS), RM 00202.001A.
        4
         SSA, POMS, RM 00203.020(2)(b). SSA, POMS, RM 00203.500B. states that an Arrival/Departure
        Record (Form I-94) is evidence of employment authorization for R-1 religious workers.
Page 2 - The Commissioner


workers for services performed are generally taxable and reportable on a Wage and
Tax Statement (Form W-2). 5 SSA posts reported earnings to its Master Earnings File. 6

To accomplish our objectives, we identified a population of 5,392 nonimmigrants to
whom SSA assigned original SSNs based on evidence they were R-1 religious workers
from April 1, 2005 through March 31, 2006. From this population, we randomly selected
a sample of 200 records to assess R-1 religious workers’ use of SSNs and determine
whether SSA personnel complied with Agency policies and procedures when
processing R-1 SSN applications. Appendix B includes additional background
information, Appendix C includes a detailed description of our scope and methodology,
and Appendix D includes our sample appraisals.

DHS and the Government Accountability Office (GAO) have identified numerous
incidences of fraud in the religious worker program. One GAO report stated that this
fraud often involved false statements by petitioners about the length of time they were a
member of a religious organization, their qualifying work experience, and the position
being filled. The report also noted problems with applicants making false statements
about their individual qualifications and plans while in the United States. 7 DHS’
assessment identified weaknesses that created vulnerabilities for fraud. 8 As such, DHS
recently made policy changes to reduce fraud and abuse in the R-1 visa program. 9
Because the subject of this report involves immigration enforcement and visa-related
issues, we plan to share our report with the DHS and Department of State Inspectors
General.

RESULTS OF REVIEW

Based on the results of our review, we are concerned that some R-1 religious workers
used their SSNs for purposes other than to work for their sponsoring religious
organizations. In fact, about 3 (31 percent) of every 10 R-1 religious workers in our
sample had solely religious wages posted to their earnings record for 2005 through
2007. 10 Wages for the remaining individuals in our sample are categorized as follows.



5
 Internal Revenue Service, Publication 519, U.S. Tax Guide for Aliens, Chapter 2 and SSA, POMS,
RM 01105.003C.2.
6
    SSA, POMS, RS 01404.003A.1.
7
 GAO, Report to the Congressional Requesters, Visa Issuance: Issues Concerning the Religious Worker
Visa Program (GAO/NSIAD-99-67) pp. 2 and 4 March 26, 1999.
8
 U.S. Citizenship and Immigration Services, Office of Fraud Detection and National Security, Religious
Worker Benefit Fraud Assessment Summary, July 2006.
9
 Federal Register / Vol. 73, No. 229 / Wednesday, November 26, 2008 / Rules and Regulations
p. 72278.
10
     Some 2007 wages may not have posted as of July 2, 2008.
Page 3 - The Commissioner


    About 4 (39 percent) of every 10 R-1 religious workers had no wages reported. 11

    About 1 (11 percent) of every 10 R-1 religious workers had only self-employment
     earnings.

    About 2 (19 percent) of every 10 R-1 religious workers’ earnings records only had
     wages recorded from non-religious organizations (6 percent) or some combination of
     religious and non-religious wages and/or self-employment earnings (13 percent).

Based on our findings and those of DHS and GAO, we believe SSA should strengthen
its evidentiary requirements for assigning SSNs to R-1 religious workers. We question
whether assigning SSNs to R-1 religious workers who may use the SSN for purposes
other than religious employment or will not receive wages for services rendered is
prudent. Instead, we believe SSA should consider assigning SSNs to R-1 religious
workers who provide current evidence they have secured employment or a promise of
employment from their sponsoring religious organization and need an SSN for wage
reporting purposes.

We also believe SSA should reemphasize the importance of understanding and
following all policies and procedures when processing SSN applications from R-1
religious workers. Of the 200 sample items we reviewed, 26 (13 percent) contained at
least 1 compliance error. As such, we estimate SSA personnel did not fully comply with
SSA’s procedures when assigning 701 original SSNs to R-1 religious workers during our
audit period. The most common occurrences of SSA personnel’s noncompliance with
policies and procedures were failure to (1) document Systematic Alien Verification for
Entitlements (SAVE) 12 program verifications or (2) correctly code Numident 13
information.




11
 Religious organizations told us they generally report R-1 religious worker wages on Forms W-2.
However, we found that some religious organizations did not pay wages but provided room, board and
medical care.
12
   SSA, POMS, RM 00203.730A and RM 00203.730B. DHS provides and maintains the SAVE program
for benefit-granting agencies, such as SSA, to verify that alien applicants meet immigration status
eligibility requirements. To properly assign SSNs to aliens, SSA uses SAVE to confirm the authenticity of
immigration documents submitted to support the SSN card application and verify the immigration status
and work authorization of applicants.
13
   SSA, POMS, RM 00209.002. When SSA assigns an SSN to an individual, it creates a master record in
its “Numident” file containing relevant information about the numberholder.
Page 4 - The Commissioner


SOME R-1 RELIGIOUS WORKERS MAY HAVE USED SSNs FOR PURPOSES
OTHER THAN WORK FOR A RELIGIOUS ORGANIZATION

Of the 5,392 R-1 religious workers to whom SSA assigned an SSN from
April 1, 2005 through March 31, 2006, we estimate SSA assigned about 2,103 SSNs
(39 percent) to R-1 religious workers who had no posted wages and 593 (11 percent)
who had self-employment earnings from 2005 through 2007, as shown in Figure 1. As
such, we could not determine whether these R-1 religious workers actually worked for a
religious organization. Additionally, we estimate that 297 (6 percent) of the R-1 religious
workers had non-religious wages posted to their SSA earnings record during the same
period. Contrary to regulation, these nonimmigrants worked for a variety of
non-religious organizations, including restaurants, temporary labor, and retail stores.

                    Figure 1: R-1 Religious Workers’ Posted Wages
                                  (2005 through 2007)




                                                     11%

            31%                                            6%



                                                                13%




                                                                  No wages
                                                                  Religious wages
                                                                  Self-employment
                                      39%                         Non-religious wages
                                                                  Other combinations
Source: OIG analysis of Detailed Earnings Queries.

The following examples illustrate SSA’s exposure to potential SSN misuse.

   One R-1 religious worker from Nigeria had recorded earnings totaling over
    $28,000 from 11 different non-religious organizations.

   One R-1 religious worker from Peru had recorded earnings totaling over
    $46,000 from six different non-religious organizations.

   One R-1 religious worker from Nigeria had recorded earnings totaling over
    $18,000 from five different non-religious organizations.
Page 5 - The Commissioner


      One R-1 religious worker from Nigeria had recorded earnings totaling over
       $45,000 from four different organizations, but only about $2,000 was from a
       religious organization.

To determine why some R-1 religious workers did not have wages posted to their
earnings record or had self-employment earnings, we sent letters to 25 sponsoring
religious organizations. Some religious organizations told us they reported wages for
the identified R-1 religious workers on Forms W-2; however, SSA’s Master Earnings
File did not reflect these earnings. 14 In addition, one organization told us it reported R-1
religious workers’ self-employment earnings on Internal Revenue Service Form
1099-MISC, Miscellaneous Income. As such, these earnings would only be posted to
SSA records if the R-1 religious worker filed an income tax return. Furthermore, some
religious organizations told us they did not pay wages but provided room, board and
medical care.

These scenarios may explain why about half of the R-1 religious workers in our sample
had no earnings or had self-employment earnings posted to their SSA records.
However, the scenarios also raise the question whether all R-1 religious workers need
SSNs—if religious organizations do not report wages or R-1 religious workers do not file
income tax returns. Although we acknowledge that existing law requires that SSA
assign SSNs to all nonimmigrants who enter the United States with work authorization,
we believe the Commissioner of Social Security has some flexibility in promulgating
regulations that help decrease the potential of SSN misuse. For example, to enhance
SSN integrity, SSA implemented a regulation for F-1 students (who also have work
authorization) that requires evidence of actual or promised on-campus employment
before SSN assignment. 15

SSA SHOULD CONSIDER STRENGTHENING ITS EVIDENTIARY REQUIREMENTS
FOR ASSIGNING SSNs TO R-1 RELIGIOUS WORKERS

Based on our findings and those of DHS and GAO, we believe SSA should consider
strengthening its evidentiary requirements for assigning SSNs to R-1 religious workers.
We recognize any potential evidentiary changes will require changes to existing
regulations and SSA policies. However, this should not detract SSA from exploring
ways of strengthening its evidentiary requirements for assigning SSNs to R-1 religious
workers.

To enhance SSN integrity, we believe SSA should consider requiring that R-1 religious
workers provide current evidence (for example, a letter from the sponsoring religious
organization) of religious employment or a promise of employment before SSN
assignment. Although R-1 religious workers may provide similar documentation to
support their R-1 visa application, an extended period of time may pass before their
arrival in the United States. As such, requiring a current letter would give SSA

14
     We examined the Earnings Suspense File and did not identify these individuals.
15
     20 C.F.R. § 422.105(b).
Page 6 - The Commissioner


additional assurance that the R-1 religious worker still plans to work for their sponsoring
religious organization, as required by DHS regulations. As a check, SSA could compare
the current letter with information on Form I-94, Arrival/Departure Record, which DHS
provides to every alien who qualifies for admission as an R-1 religious worker and is
endorsed with the name and location of the specific organizational unit of the religious
organization for which the alien will be providing services in the United States. 16

We believe SSA would not have assigned SSNs to hundreds of nonimmigrants during
our audit period if it had required current evidence of religious employment. This would
also help address GAO’s concerns about R-1 religious workers making false statements
on their visa applications about their plans while in the United States.

While we understand that some R-1 religious workers may take a vow of poverty and,
as such, not receive wages for services rendered, we question why they need an SSN.
Some religious organizations told us that R-1 religious workers often use their SSN to
open a bank account, rent an apartment, or obtain a driver’s license. While we
understand that R-1 religious workers may desire an SSN to help them assimilate into
American society, the purpose of the SSN is to keep an accurate record of earnings
covered under Social Security and pay benefits on those earnings. 17 As such, we
believe SSA should consider not assigning SSNs to R-1 religious workers who may not
have wage-reporting responsibilities, thus negating the need to obtain an SSN.

FIELD OFFICE PERSONNEL DID NOT ALWAYS COMPLY WITH POLICIES AND
PROCEDURES WHEN PROCESSING R-1 RELIGIOUS WORKERS’ SSN
APPLICATIONS

We estimate SSA field office personnel did not fully comply with SSA’s procedures
when assigning 701 original SSNs to R-1 religious workers from April 1, 2005 through
March 31, 2006. As shown in Table 1, the most common occurrences of SSA
personnel’s noncompliance with policies and procedures were failure to (1) document
SAVE program verifications, (2) correctly code Numident evidence information, and
(3) sufficiently document evidence of age, identity, and lawful alien status/current
authority to work.




16
     8 C.F.R. § 214.2(r)(4).
17
     SSA, POMS, RM 00201.001A.
Page 7 - The Commissioner


          Table 1: Specific Occurrences of Noncompliance in Sampled Items

                             Type of                                             Number of
                        Compliance Error                                        Occurrences
 SAVE Verification not Documented                                                    17
 Numident Evidence (IDN) Code was Incorrect                                           8
 Sufficient Evidence Was Not Documented                                               4
 SAVE Class of Admission was not R-1                                                  2
 Improper Assignment of an SSN                                                        1
                        Summary of Errors                                          Totals
 Number of Noncompliance Errors 18                                                   32
 Number of Sampled SSNs with at Least One Error                                      26
 Sample Size                                                                        200
 Percentage of Sampled SSNs with at Least One Error (26/200)                         13
Source: OIG analysis of sample items.

We believe the following instances of SSA field office personnel’s noncompliance with
policies and procedures illustrate SSA’s risk of exposure to improper SSN assignment
and misuse. SSA reviewed our findings and confirmed the errors we identified.

      Field office personnel incorrectly coded R-1 nonimmigrants as permanent resident
       aliens in the Numident file. 19 This error is significant because DHS generally admits
       R-1 religious workers for a period of 2½ to 5 years, whereas permanent resident
       aliens are legally afforded the privilege of residing permanently in the United States.
       Incorrectly coding SSN applications diminishes the integrity of SSA records.

      Field office personnel accepted expired foreign passports as evidence of identity,
       contrary to SSA policy. 20 Therefore, SSA did not have assurance the R-1 religious
       workers provided acceptable documentation to process the SSN applications.

      A field office employee improperly assigned an SSN to one R-1 religious worker
       when the immigration status on the SAVE response did not agree with the status on
       the Form I-94. In such instances, SSA policy requires that SSA personnel submit
       an additional verification request to resolve the conflicting information. Because the
       employee did not comply with policies and procedures, SSA assigned an SSN
       without knowing the nonimmigrant’s true immigration status.




18
  We acknowledge that some of the noncompliance errors we identified may no longer occur because of
enhancements made to SSA’s SS-5 Assistant.
19
     SSA, POMS, RM 00202.235.
20
     SSA, POMS, RM 00203.200E.
Page 8 - The Commissioner


Established policies and procedures can only be effective if personnel processing SSN
applications comply with them. Based on our noncompliance findings, we believe SSA
should reemphasize the importance of following all policies and procedures when
processing SSN applications from R-1 religious workers and take corrective action to
address performance problems or training needs when Agency personnel do not
comply with this requirement. In addition, SSA should correct the Numident evidence
code errors identified in this review.

CONCLUSION AND RECOMMENDATIONS
SSA should continue to enhance SSN integrity because some individuals will exploit
even the smallest vulnerabilities in the Agency’s controls. Unless SSA takes additional
steps to strengthen its controls over SSN assignment for R-1 religious workers, threats
to SSN integrity will remain. Given the potential for R-1 religious workers to use SSNs
for purposes other than employment for a religious organization, we believe SSA would
benefit by taking additional steps to reduce the possibility of such activity.

Accordingly, we recommend that SSA:

1. Consider requiring that R-1 religious workers provide current evidence of religious
   employment or a promise of employment and establish their need for an SSN for
   wage reporting purposes before assigning them an SSN. In considering this
   recommendation or other steps to enhance SSN integrity, we believe SSA should
   work with DHS to understand how implementation of DHS’ November 2008 final rule
   may reduce fraud and abuse in the religious worker visa program.

2. Reemphasize to field office personnel the importance of following all policies and
   procedures when processing SSN applications for R-1 religious workers and take
   corrective action to address performance problems or training needs when Agency
   personnel do not comply with this requirement.

3. Correct R-1 religious workers’ Numident evidence code errors we identified in our
   sample. We will provide further details regarding these individuals under separate
   cover.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix E.



                                               S
                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Background
APPENDIX C – Scope and Methodology
APPENDIX D – Sample Appraisal
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                 Appendix A

Acronyms
C.F.R.      Code of Federal Regulations
DHS         Department of Homeland Security
GAO         Government Accountability Office
IDN         Numident Evidence Code
OIG         Office of the Inspector General
POMS        Program Operations Manual System
R-1         Classification for a Nonimmigrant Religious Worker
SAVE        Systematic Alien Verification for Entitlements
SSA         Social Security Administration
SSN         Social Security Number


Forms
I-94        Arrival/Departure Record
SS-5        Application for a Social Security Card
W-2         Wage and Tax Statement
1099-MISC   Miscellaneous Income
                                                                                                    Appendix B

Background
Issuances of nonimmigrant R-1 religious worker visas have increased since 2003, as
shown in Table 1.

                        Table 1: Nonimmigrant Religious Worker Visas Issued by the
                       Department of State from 2003 Through 2007 (Preliminary Data)


  2003                                                                                 8,636


  2004                                                                                   8,806


  2005                                                                                 8,538


  2006                                                                                  8,716


  2007                                                                                                     10,372

         0               2,000            4,000             6,000            8,000                10,000              12,000


Source: Department of State Bureau of Consular Affairs.

As shown in Table 2, the largest numbers of R-1 religious workers assigned an original
Social Security number (SSN) from April 1, 2005 through March 31, 2006 were born in
India, South Korea, Israel, and Mexico.

                        Table 2: Top 10 Countries of Birth for R-1 Religious Workers
                     Assigned an Original SSN from April 1, 2005 Through March 31, 2006


  700
             583
  600                   557
  500
                                 426
  400                                       338
  300                                                 213           200       197         174          168           166
  200
  100
    0
             India     South     Israel    Mexico   Canada     Philippines   Nigeria     Brazil      Colombia        United
                       Korea                                                                                        Kingdom
                                                    Countrie s of Birth


Source: OIG analysis of SSNs assigned to R-1 religious workers.
                                                                       Appendix C

Scope and Methodology
To accomplish our objectives, we

   reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures;

   reviewed applicable laws and regulations;

   reviewed prior audit reports issued by the Department of Homeland Security and the
    Government Accountability Office;

   obtained a data extract of 5,392 original Social Security numbers (SSN) assigned to
    individuals with “R-1” or “R1” in the Modernized Enumeration System Transaction
    History File’s evidence field (based on evidence recorded by field office staff during
    the SSN application process) from April 1, 2005 through March 31, 2006;

   randomly selected a sample of 200 records from our data extract;

   reviewed Numident records and analyzed Detailed Earnings Queries for 2005
    through 2007;

   attempted to contact 25 religious organizations to determine why an R-1 religious
    worker may not have wages posted to their SSA earnings record or had
    self-employment earnings; and

   contacted the Departments of Homeland Security and State to obtain information on
    the sponsoring organizations of R-1 religious workers.

Our review of internal controls was limited to SSA’s policies and procedures for
assigning original SSNs to R-1 religious workers. We performed our audit at the Office
of Audit in Birmingham, Alabama. The data were sufficiently reliable to meet our
objectives.

The SSA entity audited was the Office of the Deputy Commissioner for Operations. We
conducted this performance audit from March through October 2008 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
                                                                  Appendix D

Sample Appraisal
Table 1: Sample Results and Projection of R-1 Religious Workers’ Posted
         Wages/Earnings for 2005 Through 2007

                       SAMPLE ATTRIBUTE APPRAISAL
 Total Population of Original Social Security Numbers (SSN) Assigned
 to R-1 Religious Workers from April 1, 2005 Through March 31, 2006       5,392
 Sample Size                                                               200
                              Attribute Projections
 Number of Instances in Sample Where R-1 Religious Workers Had
                                                                            11
 Non-Religious Reported Wages for 2005 Through 2007
 Estimate of Instances in Population Where R-1 Religious
 Workers Had Non-Religious Reported Wages for 2005 Through                 297
 2007
 Projection—Lower Limit                                                    170
 Projection—Upper Limit                                                    478
                              Attribute Projections
 Number of Instances in Sample Where R-1 Religious Workers Did
                                                                            78
 Not Have Reported Wages for 2005 Through 2007
 Estimate of Instances in Population Where R-1 Religious
                                                                          2,103
 Workers Did Not Have Reported Wages for 2005 Through 2007
 Projection—Lower Limit                                                   1,798
 Projection—Upper Limit                                                   2,421
                               Attribute Projections
 Number of Instances in Sample Where R-1 Religious Workers Had
                                                                            22
 Self-Employment Earnings for 2005 Through 2007
 Estimate of Instances in Population Where R-1 Religious
                                                                           593
 Workers Had Self-Employment Earnings for 2005 Through 2007
 Projection—Lower Limit                                                    411
 Projection—Upper Limit                                                    822
 Projections made at the 90-percent confidence level.




                                        D-1
Table 2: Sample Results and Projection Where the Social Security Administration
         Did Not Comply with Policies and Procedures When Processing Original
         Social Security Number Applications for R-1 Religious Workers from
         April 1, 2005 Through March 31, 2006

                     SAMPLE ATTRIBUTE APPRAISAL
 Total Population of Original SSNs Assigned to R-1 Religious
 Workers from April 1, 2005 Through March 31, 2006                  5,392
 Sample Size                                                         200
                             Attribute Projection
 Number of Instances in Sample Where the Social Security
 Administration (SSA) Did Not Comply with Policies and
                                                                      26
 Procedures When Processing Original SSN Applications for R-1
 Religious Workers
 Estimate of Instances in Population Where SSA Did Not
 Comply with Policies and Procedures When Processing                 701
 Original SSN Applications for R-1 Religious Workers
 Projection—Lower Limit                                              504
 Projection—Upper Limit                                              943
 Projections made at the 90-percent confidence level.




                                        D-2
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      February 17, 2009                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, Management Advisory Report, "R-1
           Religious Workers' Use of Social Security Numbers" (A-08-08-18079)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Our response to the report’s findings and recommendations
           are attached.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
MANAGEMENT ADVISORY REPORT, "R-1 RELIGIOUS WORKERS' USE OF
SOCIAL SECURITY NUMBERS" (A-08-08-18079)


We have reviewed the draft report and agree with the report’s contents and findings. Our
responses to the specific recommendations are provided below.

Recommendation 1

Consider requiring that R-1 religious workers provide current evidence of religious employment
or a promise of employment and establish their need for a Social Security number (SSN) for
wage reporting purposes before assigning them an SSN. In considering this recommendation or
other steps to enhance SSN integrity, we believe the Social Security Administration should work
with the Department of Homeland Security (DHS) to understand how implementation of DHS’
November 2008 final rule may reduce fraud and abuse in the religious worker visa program.

Response

We agree with the intent of this recommendation. We will work with DHS in developing any
new policy or procedure as it relates to the November 2008 rule.

Recommendation 2

Reemphasize to field office personnel the importance of following all policies and procedures
when processing SSN applications for R-1 religious workers and take corrective action to
address performance problems or training needs when agency personnel do not comply with this
requirement.

Response

We agree. In March 2009, we will include a reminder item in the Employee Security Reminders
Administrative Message issued to all employees.

Recommendation 3

Correct R-1 religious workers’ Numident evidence code errors we identified in our sample. We
will provide further details regarding these individuals under separate cover.

Response

We agree. We will correct the evidence code errors on the Numident once we receive the
sample cases from OIG.




                                              E-2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1650

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Janet Matlock, Senior Auditor

   Charles Lober, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-08-18079.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
